,'Y'

y-P

VIRGINIA^
3n the, Supreme. Count of Vinyutia field at the Sapneme Count 3)uildiuy in the
City, of Jtichniond on 3niday the 19th day of Munch, 2C21.
Zachary Cooper, Sr.,
against

Appellant,

Record No. 200857
Circuit Court No. CR02000928-00

Commonwealth of Virginia,

Appellee.

From the Circuit Court of Arlington County
Upon review of the record in this case and consideration of the argument submitted in
support of the granting of an appeal, the Court is of the opinion there is no reversible error in the
judgment complained of. Accordingly, the Court refuses the petition for appeal.
A Copy,
Teste:
Douglas B. Robelen, Clerk
By:
Deputy Clerk

ApPENCsXX - f)

VIRGINIA: IN THE CIRCUIT COURT OF Arlington County/Virginia
Federal Information Processing Standards Code: 013
COMMONWEALTH OF VIRGINIA
VS.

CR02-928

ZACHARY COOPER, SR.
THIS MATTER CAME BEFORE THE COURT on Defendant's Motion to Vacate Void Judgment filed on June
24, 2019, and Defendant's Motion to Incorporate Criminal Trial Records filed on June 24, 2019.
IT APPEARING TO THE COURT that the Attorney General filed a Motion to Dismiss Defendant's Motion
to Vacate Void Judgment on March 2, 2020.
IT FURTHER APPEARING TO THE COURT that Defendant filed a Reply Brief on March 16, 2020.
UPON CONSIDERATION WHEREOF the Attorney General's Motion to Dismiss is hereby granted, and
Defendant's Motion to Vacate Void Judgment is hereby denied and dismissed.
The Clerk of Court shall mail copies of this Orderto the parties.
ENTERED this£**^dav of March, 2020.

The Honorable Louise M. DiMatteo
Judge, Arlington County Circuit Court

ApPENblx ~ B

/'

J
t

4>

A'

>

VIRGINIA:
Jn the Supreme Count of Virginia held, at the Sup>teme Qowd {Building, in the
Oily, of tRichmond on ffhwidday the, 13th, day, of May, 2C21.

Zachary Cooper, Sr.,
against

Appellant,

Record No. 200857
Circuit Court No. CR02000928-00

Commonwealth of Virginia,

Appellee.

Upon a Petition for Rehearing

On consideration of the petition of the appellant to set aside the judgment rendered herein
on March 19, 2021 and grant a rehearing thereof, the prayer of the said petition is denied.

A Copy,
Teste:
Douglas B. Robelen, Clerk
By:

too

Deputy Clerk

Appendux - CL

* .V°vX
V

^ 'VA

VIRGINIA:
3ti the Supreme Gawd of Virginia, held at the Supreme Gawd {Building in the
Gity of {Richmond on {Tuesday the 16th day, of Alwich, 2021.

Zachary Cooper, Sr., No. 1039666,
against

Petitioner,

Record No. 200792
Respondent.

Arlington County Magistrate,
Upon a Petition for a Writ of Mandamus

Upon consideration of the petition for a writ of mandamus filed June 10, 2020, the rule to
show cause, the respondent’s motion to dismiss, and petitioner’s reply, the Court is of the
opinion that the motion should be granted and the petition should be dismissed.
Petitioner, an inmate in the custody of the Virginia Department of Corrections, contends
he sent fourteen citizen criminal complaints to the Arlington County General District Court in
June 2019. On September 5, 2019, a deputy clerk in the general district court's clerk's office
advised petitioner that the complaints had been forwarded to the "Magistrate's Office" for 17th
Judicial District in the 5th Magisterial Region. Petitioner requested confirmation that the
complaints had been received on October 3, 2019, but he had not received any response. ‘
Petitioner asks this Court to compel the magistrate to file and process the complaints.
The Court holds the writ does not lie. the record, including the affidavit of Bruce C.
Adams, Chief Magistrate of the Seventeenth Judicial District, demonstrates Chief Magistrate
Adams received the complaints, reviewed them, and determined they were without merit and no
warrants should issue. Although a magistrate would ordinarily return a complaint after finding
no probable cause, see Code § 19.2-72, because the complaints did not provide contact
information for petitioner, Chief Magistrate Adams discarded the complaints. Accordingly,

ftfTENiblX - F

Chief Magistrate Adams has “processed” petitioner’s complaints and rendered a decision on
them, and there remains nothing in his possession to file. Thus, the petition is moot.
Accordingly, it is therefore ordered that the petition be dismissed, the rule discharged,
and that the petitioner pay to the Clerk of this Court the costs assessed below.

Petitioner's costs:
Filing fee

$50.00

A Copy,
Teste:
Douglas B. Robelen, Clerk
By:

2

VIRGINIA:
IN THE CIRCUIT COURT OF ARLINGTON COUNTY
COMMONWEALTH OF
VIRGINIA
v.

ZACHARY MYRON COOPER

)
)
)
)
)
)

CR02-928-34

ORDER
THIS MATTER COMES BEFORE the Court on a Motion to Store, Preserve, and Retain
Human Biological Evidence, filed by the Petitioner, Zachary Myron Cooper, an inmate at the
Sussex I State Prison, who seeks to have all human biological evidence currently in the Court’s
possession from Maya Cooper and Marie Gault stored, preserved, and retained for an additional
ten years from the date the instant motion is filed;
HAVING REVIEWED the Motion and Va. Code § 19.2-270.4:1, it appears that the
Petitioner fails to identify with specificity the human biological evidence he wants stored,
preserved, and retained as required in the statute, it is therefore
ADJUDGED and ORDERED that the Motion be, and hereby is, dismissed without
prejudice, for lack of specificity as required in Va. Code § 19.2-270.4:1.
THE CLERK IS DIRECTED to forward attested copies of this Order to the Petitioner
and the Commonwealth’s Attorney.
Entered this el

-jfw

day of November, 2012.

n
T

/?

a
GE JOANNE F. ALPER

ftpPEN^XX " R

£
I
t

m

E3*i

FILED by A lington County Circuit Court

CR02UBU3«-®«

0

^fflCuVd

01/28/2014

VIRGINIA:
IN THE CIRCUIT COURT OF ARLINGTON COUNTY
ZACHARY COOPER, SR.,
Petitioner,
v.

Case No. CR020009Z8 through 934

COMMONWEALTH OF VIRGINIA,
Respondent.
ORDER
THIS MATTER CAME BEFORE THIS Honorable Court upon a Petition filed by Zachary
Cooper, Sr. ("Petitioner”) to preserve certain evidence. The Court, on Friday, January 10,
2014, conducted a hearing with the Commonwealth Attorney to ascertain what evidence was
extant for purposes of considering Petitioner's request.
IT APPEARING TO THE COURT that present in the courtroom were the Commonwealth
Attorney, Theophani Stamos, a court reporter and Circuit Court Judge, Louise M. DiMatteo;
IT FURTHER APPEARING TO THE COURT that the Court file (CR02-928-34) reveals an
"Evidence List", describing in brief particular items offered to and/or admitted by the Court in
these cases at trial. This list is attached to this Order as Exhibit 1.
IT FURTHER APPEARING TO THE COURT that in addition, on January 28,2008, Judge
Joanne Alper, by agreement of the Petitioner (then Defendant) by counsel and the
Commonwealth, signed an order releasing three exhibits. These were Exhibits 70,74 and 75.
This Order is attached to this Order as Exhibit 2.

1

fVcpEMtol* - S

IT FURTHER APPEAmNG TO THE C0URT tHat'on'June 6r2008ranother agreed-orderwas entered by the Court - endorsed again by Petitioner's attorney and the Commonwealth for the release of three additional exhibits. These were Exhibits 137,139 and 141. This Order
is attached hereto as Exhibit 3.
IT FURTHER APPEARING TO THE COURT that the Arlington County Police Department
has a record - attached hereto as Exhibit 4 - that states that twenty seven (27) items were
released to a family member. Among those 27 items are the six Exhibits that were ordered to
be released by the two orders as referenced above.
IT FURTHER APPEARING TO THE COURT that Petitioner in his Motion to Store Preserve
and Retain Human Biological Evidence, filed with the Court on January 8,2013, specifically
states, "with as much clarity as he can, that he request the Court to store: the white sweater
worn by Marie Gault; the shirt worn by Marie; both the rifle clips; Marie's blood samples; and
Maya Cooper's blood samples."
IT FURTHER APPEARING TO THE COURT that there being no objection by the
Commonwealth to this request provided that such materials are in the Court's control, the
Court deems it appropriate to grant the Petitioner's Motion to preserve these materials,

should they be within the Court's control to retain and preserve.
IT FURTHER APPEARING TO THE COURT that in addition, the Commonwealth, via her
counsel Ms. Stamos, has determined that the Arlington County Police Department has
retained Marie Gault and Maya Cooper's Physical Evidence Recovery Kits ("PERK"). See
Response of the Commonwealth attached hereto.

2

)T f URTHER-A-PPEA-RING^e THE COURT that the rifle clipswere.introduced into
evidence and are a part of the Court file and were verified to be in the possession of the Clerk
of Court,
ACCORDINGLY, it is hereby
ORDERED, ADJUDGED and DECREED that
1.

The Petitioner's Motion to preserve certain evidence is GRANTED to the extent

that the particular items requested are within the custody and control of the Clerk of the
Circuit Court or the ACPD.
2.

The ACPD will preserve, until further order of Court, the PERK belonging to

Marie Gault and Maya Cooper which are currently being held in the ACPD Property Unit.
3.

The Clerk of Court will preserve the evidence not previously released until

further order of Court: rifle clips offered or admitted into evidence; any of Marie Gault's
blood samples offered or admitted into evidence; and any of Maya Cooper's blood samples
offered or admitted into evidence.
ENTERED this 2l“ day of January, 2014.

Louise M. DiMatteo, Judge

3

Additional material
from this filing is
available in the
Clerk's Office.

